HHS/OIG, Audit - "Medicare Inpatient And Outpatient Bad Debts Claimed By Montefiore Medical Center For Fiscal Year Ended December 31, 1999,"(A-02-02-01031)
Department
of Health and Human Services
"Medicare Inpatient And Outpatient Bad Debts Claimed By Montefiore Medical Center For Fiscal Year Ended December
31, 1999," (A-02-02-01031)
January 16, 2003
Complete
Text of Report is available in PDF format (2.07 Mb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This final report points out that of the $1,942,786 in Medicare hospital bad debts claimed by Montefiore Medical Center
on its fiscal year 1999 cost report, at least $283,345 were unallowable for Medicare reimbursement. Many of the unallowable
bad debts resulted from claimed bad debts that were unsupported, recoveries of previously written-off bad debts which were
not offset against the current periods allowable bad debts, non-systemic clerical and accounting errors, and bad debts
claimed for Medicare non-covered services. We recommended that the hospital adjust its 1999 cost report to reduce Medicare
bad debts claimed by $283,345. We also recommended that the hospital develop and implement written procedures to reconcile
the amount claimed as Medicare bad debts on the cost report to the Medicare bad debt logs, assure that recoveries on Medicare
inpatient bad debts are used to reduce the Hospitals claim for reimbursable bad debts in the period the amounts are recovered,
and assure that Medicare bad debts claimed by the Hospital meet Medicare reimbursement requirements. The Hospital fully
concurred with our findings and recommendations.